will issue, upon Your request, a PIN for use with participating ATMs.
This PIN is confidential and should not be disclosed to anyone. You
may use Your PIN to access Your Account and all sums advanced
will be added to Your Account balance. In the event a use of Your
PIN constitutes an Electronic Fund Transfer, the terms and conditions of Your Electronic Fund Transfer Agreement may also affect
Your rights.
EFFECT OF AGREEMENT. Even though the sales, cash advance,
credit or other slips You may sign or receive when using Your Card
contain terms, this Agreement is the contract which solely applies
to all transactions involving the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use
of Your Card. You will not be liable for the unauthorized use that occurs after You notify Us of the loss, theft, or possible unauthorized
use by calling Us at the telephone number shown in this Agreement
or by writing to Us at the address shown in this Agreement. In any
case, Your liability will not exceed $50.
REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are
not liable for the refusal or inability of merchants, financial institutions and others to accept the Cards or Convenience Checks, or
electronic terminals to honor the Cards or complete a Card withdrawal, or for their retention of the Cards or Convenience Checks.
FOREIGN TRANSACTIONS. For transactions initiated in foreign
countries and foreign currencies, the exchange rate between transaction currency and the billing currency (U.S. dollars) will be: (a) a
rate selected by VISA from the range of rates available in wholesale
currency markets for the applicable central processing date, which
rate may vary from the rate VISA itself receives; or (b) the government mandated rate in effect for the applicable central processing
date. In each instance, You will be charged a fee in an amount equal
to 1.00% of the settlement amount.
TRANSACTIONS SLIPS. Your monthly statement will identify that
merchant, electronic terminal or financial institution at which transactions were made, but sales, cash advances, credit or other slips
cannot be returned with the statement.
LOST CARDS AND CONVENIENCE CHECKS. To report lost or stolen
Credit Cards or Convenience Checks, You will immediately call Us at
the telephone number shown in this Agreement or write to Us at the
address shown in this Agreement.
CREDITS. If a merchant who honors Your Card gives You credit for
returns or adjustments, they will do so by sending Us a slip which
will be posted to Your Account. If Your credits and payments exceed what You owe Us, We will hold and apply this credit against
future purchases and cash advances, or if it is $1.00 or more refund
it on Your written request or automatically deposit it to Your Share
Account after six months.
YOUR CREDIT CARD BILLING RIGHTS
Keep this document for future use. This notice tells You about Your
rights and Our responsibilities under the Fair Credit Billing Act.

rect the error or explain to You why We believe the bill is
correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question or report You
as delinquent on that amount.
• The charge in question may remain on Your statement, and
We may continue to charge You interest on that amount.
• While You do not have to pay the amount in question, You are
responsible for the remainder of Your balance.
• We can apply any unpaid amount against Your credit limit.
After We finish our investigation, one of two things will happen:
• If We made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If We do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest and
fees. We will send You a statement of the amount You owe
and the date payment is due. We may then report You as delinquent if You do not pay the amount We think You owe.
If You receive our explanation but still believe Your bill is wrong,
You must write to Us within 10 days of telling Us that You still refuse
to pay. If You do so, We cannot report You as delinquent without
also reporting that You are questioning Your bill. We must tell You
the name of anyone to whom We reported You as delinquent, and
We must let those organizations know when the matter has been
settled between Us. If We do not follow all of the rules above, You
do not have to pay the first $50 of the amount You question even
if Your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH YOUR CREDIT
PURCHASES. If You are dissatisfied with the goods or services that
You have purchased with Your Credit Card, and you have tried in
good faith to correct the problem with the merchant, You may have
the right not to pay the remaining amount due on the purchase. To
use this right, all of the following must be true:
1. The purchase must have been made in Your home state or
within 100 miles of Your current mailing address, and the purchase price must have been more than $50. (Note: Neither of
these are necessary if Your purchase was based on an advertisement We mailed to You, or if We own the company that
sold You the goods or services.)
2. You must have used Your Credit Card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses Your Credit Card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied with
the purchase, contact Us in writing at the above address. While We
investigate, the same rules apply to the disputed amount as discussed above. After We finish Our investigation, We will tell You Our
decision. At that point, if We think You owe an amount and You do
not pay, We may report You as delinquent.

WHAT TO DO IF YOU FIND A MISTAKE ON YOUR STATEMENT. If
You think there is an error on Your statement, write to Us at: Heritage Grove Federal Credit Union, P.O. Box 2227, Salem, OR 97308.
In Your letter, give Us the following information:
• Account Information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If You think there is an error on Your
bill, describe what You believe is wrong and why You believe it
is a mistake.
You must contact Us:
• Within 60 days after the error appears on Your statement.
• At least 3 business days before an automated payment is
scheduled, if You want to stop payment on the amount You
think is wrong.
You must notify Us of any potential errors in writing. You may call
Us, but if You do,
We are not required to investigate any potential errors and You may
have to pay the amount in question.
WHAT WILL HAPPEN AFTER WE RECEIVE YOUR LETTER. When
We receive your letter, We must do two things:
1. Within 30 days of receiving Your letter, We must tell You that
We received Your letter. We will also tell You if We have already corrected the error.
2. Within 90 days of receiving Your letter, We must either cor-

631 Winter Street NE
Salem, Oregon 97301
503-588-0211
Toll-free: 877-695-8321
Fax: 503-371-7323
www.OurGroveCU.com

Heritage Grove
Federal Credit Union
Visa Credit Card
Agreement
and
Disclosure Statement

THIS IS YOUR CREDIT CARD AGREEMENT AND IT INCLUDES
NECESSARY FEDERAL TRUTH-IN-LENDING DISCLOSURE STATEMENTS, VISA PLATINUM AND VISA PLATINUM SECURED AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS REGARDING THE
USE OF YOUR VISA PLATINUM AND VISA PLATINUM SECURED
CREDIT CARDS, AND/OR ANY OTHER ACCOUNT ACCESS DEVICE.
PLEASE BE CERTAIN TO READ THIS AGREEMENT CAREFULLY
AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.
CREDIT CARD AGREEMENT AND DISCLOSURE STATEMENT
DEFINITIONS. In this Agreement, the reference to “We”, “Us”, “Our”
and “Credit Union” mean HERITAGE GROVE FEDERAL CREDIT
UNION. The words “You” and “Your” mean each person who accepts this Agreement or uses the VISA Platinum or VISA Platinum
Secured Credit Card(s). The words “Card” and “Credit Card” mean
any VISA Platinum or VISA Platinum Secured Credit Card issued
to You by Us and any duplicates or renewals. The word “Account”
means the
amount(s) accessible and owed under this Agreement. Convenience Checks mean the special Account access devices that We
may provide for Your use from time to time. If this is a joint Account,
read singular pronouns in the plural.
PROMISE TO PAY. You understand that the following terms and
conditions constitute Our Agreement with You. Your Account may
be accessible through a variety of means which could include advance request forms, vouchers, checks, charge slips, convenience
checks, Credit Cards and the like. Regardless of the access means,
You promise to pay Us all amounts charged to Your Account by You
or by any user who has access to Your Account, with actual, apparent or implied authority for use of Your Account, including Interest
Charges and other fees or charges described herein.
USE OF YOUR CARD. You may use Your Card to buy goods and
services in any place that it is honored and to get cash advances at
participating financial institutions. You agree not to use Your Card
for illegal transactions including, but not limited to, advances made
for the purpose of gambling and/or wagering where such practices
are in violation of applicable state and/or federal law.
SECURITY. You acknowledge that You own any shares and/or collateral pledged as security and that there are no other liens against
them other than Ours. You agree to perform all acts which are necessary to make Our security interest in the shares and/or collateral
being pledged enforceable.
OTHER SECURITY. Collateral (other than household goods or any
dwelling) given as security under this Agreement or for any other
loan You may have with Us will secure all amounts You owe Us now
and in the future if that status is reflected in the “Truth-in-Lending
Disclosure” in any particular Agreement evidencing such debt.
CONSENSUAL LIEN ON SHARES. You grant and consent to a
lien on Your shares with Us (except IRA and Keogh Accounts)
and any dividends due or to become due to You from Us to
the extent You owe on any unpaid Credit Card balance.
ACCOUNT RESTRICTIONS. In order to receive and maintain a
VISA Platinum Secured Credit Card, You agree to give Us a specific
pledge of shares which will equal Your credit limit. In the event that
You default, We may apply these shares toward the repayment of
any amount owed on Your VISA Platinum Secured Credit Card. You
may cancel Your VISA Platinum Secured Credit Card at any time by
paying any amounts owed on such Credit Card. To be certain that
Your entire balance and all advances are paid, any shares pledged
may not be available to You for 30 days after You have cancelled
and any outstanding balance is paid in full.

MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though
You need only pay the Minimum Monthly Payments, You understand that You have the right to repay at any time without penalty.
You also understand that You will only be charged periodic Interest
Charges to the date You repay Your entire balance. You may make
larger payments without penalty. Any partial payment or prepayment will not delay Your next scheduled payment. All payments
to Us must be in lawful money of the United States. As permitted
by law, We may apply payments in an order of Our choosing. Any
unpaid portion of the Interest Charge will be paid by subsequent
payments and will not be added to Your principal balance. You understand that any delay in the repayment of Your unpaid balance
will increase Your periodic Interest Charges and any acceleration in
the repayment of Your unpaid balance will decrease Your periodic
Interest Charges. Minimum Payments will be an amount equal to
3.00% of Your new unpaid balance at the end of each billing cycle,
subject to the lesser of $30.00 or Your balance, plus any portion of
the Minimum Payments shown on prior statement(s) which remains
unpaid, plus any amount that exceeds Your approved Credit Limit.
You may, by separate agreement, authorize Us to charge Your payment directly to Your Share or Share Draft Account.
LATE CHARGE. If Your payment is more than five days late, You will
be charged $35.00.
OTHER FEES AND CHARGES. You will be charged the following
fees associated with the use of Your Card: (a) $29.00 for any check
(or other negotiable instrument used for payment) which is returned unpaid; (b) $5.00 for each replacement Card You request;
and (c) $10.00 for each merchant slip copy You request.
INTEREST CHARGES. In the case of any transactions under this
Agreement, the balances subject to the periodic Interest Charge
are the average daily transactions balances outstanding during the
month (new and previous). To get the average daily balance, We
take the beginning balance each day, add any new purchases, cash
advances, insurance premiums, debit adjustments or other charges
and subtract any payments, credits and unpaid Interest Charges.
This gives Us the daily balance. Then, We add up all the daily balances for the billing cycle and divide them by the number of days
in the billing cycle. The Interest Charge for the billing cycle is computed by multiplying the average daily balance subject to an Interest Charge by the Monthly Periodic Rate.
You can avoid Interest Charges on purchases by paying the full
amount of the entire balance owed each month within 25 days of
Your statement closing date. Otherwise the new balance of purchases, and subsequent purchases from the date they are posted to
Your Account, will be subject to an Interest Charge. Cash advances
and balance transfers are always subject to an Interest Charge from
the later of the date they are posted to Your Account or from the
first day of the billing cycle in which such transaction is posted to
Your Account.
Rates may range from 12.90%-18.00%, subject to Our underwriting guidelines. The applicable Monthly Periodic Rates and corresponding Annual Percentage Rates will be disclosed to You on the
separate pricing document that We will provide to You prior to
the time of Your first credit advance.
LATE PAYMENT RATE. If Your Account is ever 30 or more days
past due twice in any six-consecutive-month period, or 60 or more
days past due at any time, the Monthly Periodic Rate applicable
to Your entire existing balance at that time and in the future will
immediately increase to 1.50% (corresponding Annual Percentage
Rate 18.00%).

LINE OF CREDIT LIMITS. You will be notified of each specific Credit
Limit for each Credit Card for which You are approved. Unless You
are in default, any Credit Limits established for You will generally be
self-replenishing as You make payments. You will keep Your unpaid
balance within Your Credit Limit set by Us, and You will pay any
amount over Your Credit Limit on Our demand whether or not We
authorize the advances which caused You to exceed Your Credit
Limit. Even if your unpaid balance is less than Your Credit Limit, You
will have no credit available during any time that You are in default.

PERIODIC STATEMENTS. On a regular basis, You will receive a
statement showing all transactions on Your Account including
amounts paid and borrowed since Your last statement. We will mail
You a statement each month in which there is a debit or credit balance or when an Interest Charge is imposed. We need not send You
a statement if We feel Your Account is uncollectible or if We have
started collection proceedings against You because You defaulted.
Each statement is deemed to be a correct statement of account
unless You establish a billing error pursuant to the Federal TruthIn-Lending Act.

JOINT ACCOUNTS. Each borrower will be responsible, jointly and
severally, for the repayment of any amounts owed. If any Account
access device, such as a Personal Identification Number (PIN), is
requested and approved, You understand that any such Account
access device(s) will be mailed only to the primary borrower at the
address that We have on file for You. We may refuse to follow any
instructions which run counter to this provision.

OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We
are under no obligation to honor Your Convenience Checks if: (1) by
paying a Convenience Check, You would exceed Your Credit Limit;
(2) Your Cards or Convenience Checks have been reported lost or
stolen; or (3) Your Account has been cancelled or has expired. If a
postdated Convenience Check is paid and, as a result, any other
Convenience check is returned unpaid, We are not responsible for

any resulting loss or liability.
DEFAULT. You will be in default if: (a) You do not make any payment or perform any obligation under this Agreement, or any other agreement that You may have with Us; or (b) You should die,
become involved in any insolvency, receivership or custodial proceeding brought by or against You; or (c) You have made a false or
misleading statement in Your credit application and/or in Your representations to Us while You owe money on Your Account; or (d) A
judgment or tax lien should be filed against You or any attachment
or garnishment should be issued against any of Your property or
rights, specifically including anyone starting an action or proceeding to seize any of Your funds on deposit with Us; and/or (e) We
should, in good faith, believe Your ability to repay Your indebtedness hereunder is or soon will be impaired, time being of the very
essence. Upon any occurrence of default, We may, to the extent
permitted by law, cancel Your rights under this Agreement, require
the return of all access devices and declare the entire balance of
every Credit Card of Your Account immediately due and payable,
without prior notice or demand.
COLLECTION COSTS. In the event collection efforts are required
to obtain payment on this Account, to the extent permitted by law,
You agree to pay all court costs, private process server fees, investigation fees or other costs incurred in collection and reasonable attorneys’ fees incurred in the course of collection any amounts owed
under this Agreement or in the recovery of any collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if We delay enforcing them. We can accept late
payments, partial payments or any other payments, even if they are
marked “paid in full” without losing any of Our rights under this
Agreement. If any provision of this or any related agreement is determined to be unenforceable or invalid, all other provisions remain
in full force and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly
if You move or otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement
by mailing or delivering to You written notice of the changes as
prescribed by the Federal Truth-In-Lending Act. To the extent permitted by law, the right to change the terms of this Agreement includes, but is not limited to, the right to change the periodic rates
applicable to Your unpaid balance and/or future advances.
CREDIT INSURANCE. Credit insurance is not required for any extension of credit under this Agreement. However, You may purchase
any credit insurance available through Us and have the premiums
added to Your outstanding balance. If You elect to do so, You will be
given the necessary disclosures and documents separately.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled
“Account Disclosure—Federal-Truth-In-Lending Act”, which is delivered together with this Agreement or at a later date becomes an
integrated part of this Agreement and Disclosure.
CONSENT TO AGREEMENT. You acknowledge the receipt of a copy
of this Agreement. By signing the application; or by using Your Account or any Account access device; or by authorizing another to
use Your Account, You agree to accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will
provide facts to update information contained in Your original Account application or other financial information related to You, at
Our request. You also agree that We may, from time to time, as
We deem necessary, make inquiries pertaining to Your employment,
credit standing and financial responsibility in accordance with applicable laws and regulations. You further agree that We may give
information about the status and payment history of Your Account
to consumer credit reporting agencies, a prospective employer or
insurer, or a state or federal licensing agency having any apparent
legitimate business need for such information.
TERMINATION. Either You or We may cancel Your Account or any
particular Credit Card of Your Account, at any time, whether or not
You are in default. You will, in any case, remain liable to pay any
unpaid balances according to the terms of Your Account.
GOVERNING LAW. This Agreement is controlled and governed by
the laws of the State of Oregon except to the extent that such laws
are inconsistent with controlling federal law.
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any time without notice. You agree to surrender
Your Card and to discontinue its use immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER (PIN). We

